ADVISORY OPINION
___________________
IN THE MATTER OF

ACA INTERNATIONAL
FTC File No. P064803.

Re:

Opinion, October 5, 2007

Whether the Fair Debt Collection Practices Act
(“FDCPA”) prohibits a debt collector from notifying a
consumer who disputed a debt that the collector has
ceased its collection efforts.

Dear Mr. Beato:
This is in response to ACA International’s (“ACA’s”) request for
a Commission advisory opinion (“Request”) regarding whether the
Fair Debt Collection Practices Act (“FDCPA”) prohibits a debt
collector from notifying a consumer who disputed a debt that the
collector has ceased its collection efforts. ACA submitted the
Request pursuant to Sections 1.1-1.4 of the Commission’s Rules of
Practice, 16 C.F.R. §§ 1.1-1.4. As explained more fully below, the
Commission concludes that a debt collector providing such a notice
to a consumer would not violate the FDCPA.
The Request focuses primarily on Section 809 of the FDCPA,
15 U.S.C. § 1692g. Section 809(a) provides that, within five days
after its initial communication with a consumer about a debt, a debt
collector must send the consumer a written notice. Among other
things, this notice must state that “if the consumer notifies the debt
collector in writing within [thirty days after receipt of the notice]
that the debt, or any portion thereof, is disputed, the debt collector
will obtain verification of the debt or a copy of a judgment against
the consumer and a copy of such verification or judgment will be
mailed to the consumer by the debt collector.” Section 809(b)
provides that if a consumer provides such a notice, the debt collector
must cease collection until it has obtained verification of the debt or
a copy of the judgment and mailed it to the consumer.

1444

FEDERAL TRADE COMMISSION DECISIONS
VOLUME 144
Advisory Opinion

In July 2007, ACA amended its Code of Ethics and Code of
Operations (“Ethics Code”). If a debt collector receives a written
request for verification and is unable to verify the debt, the Ethics
Code now requires “the cessation of all collection efforts, removal of
the account from the consumer’s credit report or reporting the
account as disputed, and prompt notification of the creditor or legal
owner of the debt that collection activities have been terminated due
to the inability to provide verification information.” Request at 3
(emphasis added). ACA “also has considered amending the Ethics
Code to promote the notification of a consumer that collection
activity has been terminated if the debt collector is unable to verify
the debt following the receipt of a written request for verification.”
Id. (emphasis added). However, ACA has not yet amended its
Ethics Code to include such a provision because of “concern that
communication with the consumer following a request for
verification might be construed as an attempt to collect, even though
the intention merely is to inform the consumer that there will no
further collections.” Id. at 2.
We note first that courts have construed Section 809(b) as giving
debt collectors two options when they receive a written dispute or a
request for verification1: (1) provide the requested verification and
continue collection activities, or (2) cease all collection activities. If
the debt collector ceases collection, it is not required to provide
1

Courts interpreting Section 809(b) have used the phrases “disputing the
debt,” “requesting verification,” and “requesting validation” interchangeably.
See, e.g., Jang v. A.M. Miller and Assocs., 122 F.3d 480, 482 (7th Cir. 1997)
(collection agencies “ceased collection activities immediately upon receiving the
requests for validation, in compliance with [Section 809(b)]”); Wilhelm v.
Credico Inc., 426 F. Supp. 2d 1030, 1036 (D.N.D. 2006) (debt collector’s
Section 809(b) obligations triggered “once a debt collector receives a request for
verification”); Sambor v. Omnia Credit Servs., Inc., 183 F. Supp. 2d 1234, 1243
(D. Haw. 2002) (debt collector’s Section 809(b) obligations triggered “[w]hen
timely asked in writing to validate a debt”); see also Clark’s Jewelers v. Humble,
823 P.2d 818, 821 (Kan. Ct. App. 1991) (a consumer need not use the word
“dispute” to trigger the debt collector’s obligation to cease collection and provide
verification of the debt, as long as the consumer’s notice makes clear that the debt
is contested).

ACA INTERNATIONAL

1445

Advisory Opinion

verification. See, e.g., Guerrero v. RJM Acquisitions LLC, 2007
U.S. App. LEXIS 20072, at *35-36 (9th Cir. Aug. 23, 2007); Jang v.
A.M. Miller & Assocs., 122 F.3d 480,483 (7th Cir. 1997); Wilhelm v.
Credico Inc., 426 F. Supp. 2d 1030, 1036 (D.N.D. 2006); Zaborac v.
Phillips and Cohen Assocs, 330 F. Supp. 2d 962, 966 (N.D. Ill.
2004); Sambor v. Omnia Credit Servs., Inc., 183 F. Supp. 2d 1234,
1243 (D. Haw. 2002).
The Request poses the question of whether a debt collector that
discontinues debt collection activities after receiving a written
request for verification can inform the consumer that it has done so
without violating the FDCPA. As noted above, Section 809(b)
requires a debt collector to cease collection of a debt until the
collector has provided verification of the debt to the consumer if the
consumer, in writing within the thirty-day window, has either
disputed the debt or requested verification. If a debt collector cannot
provide such verification to the consumer, merely informing the
consumer that debt collection efforts have been terminated is not an
attempt to collect a debt and therefore does not violate the FDCPA.2
We note that Congress enacted Section 809 to “eliminate the
recurring problem of debt collectors dunning the wrong person or
attempting to collect debts which the consumer has already paid.”3
The provision allows a consumer who does not believe that he or she
owes a debt to require that the debt collector obtain and provide
verification prior to contacting the consumer again. The purpose of
Section 809 therefore is to stop further calls and letters from
collectors unless the consumer incurred and continues to owe the
2

The Request also raises the question whether a notice informing a consumer
that collection efforts have ceased “might be construed as a 'communication’ in
furtherance of collecting the debt.” Request at 5. Regardless of whether such a
notice is a “communication” under 15 U.S.C. § 1692a(2), a debt collector telling
a consumer that debt collection has ceased is not “in furtherance of collecting the
debt.”
3

1698.

S. Rep. No. 95-382, at 4 (1977), reprinted in 1977 U.S.C.C.A.N. 1695,

1446

FEDERAL TRADE COMMISSION DECISIONS
VOLUME 144
Advisory Opinion

debt. Interpreting Section 809 as allowing debt collectors to notify
consumers that they have ceased collection efforts, without
conveying any other message, is consistent with this purpose. A
consumer receiving such a notice would benefit both from having
the calls and letters from that collector stop and from knowing that
the collector will not renew its collection efforts.4
The only other FDCPA provision that could be implicated by the
notification that ACA proposes to require of its members is Section
805(c). That provision provides that, if a consumer notifies a debt
collector in writing that he or she “refuses to pay a debtor . . . wishes
the debt collector to cease further communication,” the debt
collector is not permitted to communicate further with the consumer
about the debt. However, Section 805(c) includes an express
exception to its prohibition on communication that permits a debt
collector to “advise the consumer that the debt collector’s further
efforts are being terminated.” Thus, even if a consumer demands in
writing that a debt collector cease communicating about a debt, the
debt collector would not violate Section 805(c) if it notified the
consumer that the collector’s collection efforts have ceased.5
After reviewing the language of the FDCPA and its legislative
history as well as information contained in the Request, the
Commission concludes that a debt collector does not violate the
FDCPA if, after receiving written notice of a dispute, it informs the
consumer that it has ceased collection efforts.

4

Even if, as the amended Ethics Code now requires, a debt collector that is
unable to provide verification of a debt ceases collection efforts, closes the
account, and notifies the credit grantor, client, or owner of legal title to the debt
that collection activities have been terminated because the collector could not
provide verification of the debt, the credit grantor, client, or debt owner might
choose to refer the account to a different debt collector. Thus, although the
consumer will no longer be contacted by the first debt collector, he or she might
receive collection calls and letters from a different debt collector.
5

We note, however, that any such communication must not violate any other
FDCPA provision.

ACA INTERNATIONAL

Advisory Opinion

1447

